    Smithsonian Institution 

 Office of the Inspector General 




SEMIANNUAL REPORT 

 TO THE CONGRESS 

 October 1, 2013 – March 31, 2014
Cover image: Ai Weiwei, Cube Light, 2008. Installation view at the Hirshhorn Museum and
Sculpture Garden, Washington, DC, 2012. Photo: Cathy Carver.




Office of the Inspector General                                       Semiannual Report
Smithsonian Institution                                                      April 2014
Contents 

Message from the Acting Inspector General .................................. 1


Background
   Smithsonian Institution Profile .......................................................... 2 

   Office of the Inspector General Profile................................................ 3 


Smithsonian 2013 Top Management Challenges ........................... 4


Audits and Reviews
   Reports and Advisories .................................................................... 6 

   Status of Recommendations ............................................................11 

   Work in Progress ...........................................................................11 


Investigations
   Types of Investigations and Activities ...............................................13 

   Summaries of Several Investigations ................................................13 

   Other Investigative Activities...........................................................15 


Other OIG Activities .......................................................................16 


Tables

   Table 1 – List of Issued Audits and Reviews ................................................ 17 

   Table 2 – Audit Recommendation Activity ................................................... 17 

   Table 3 – Reports Issued with Recommendations that Funds Be Put to

             Better Use ............................................................................... 18 

   Table 4 – Reports Issued with Questioned or Unsupported Costs ................... 18 

   Table 5 – Recommendations for which Corrective Actions Not Yet Complete .... 19

   Table 6 – Summary of Complaint Activity ................................................... 20 

   Table 7 – Summary of Investigative Activity ............................................... 20 





Office of the Inspector General                                             Semiannual Report 

Smithsonian Institution                                                            April 2014

Office of the Inspector General   Semiannual Report 

Smithsonian Institution                  April 2014

Message from the Acting Inspector
General

On behalf of the Smithsonian Office of the Inspector General (OIG), I am
pleased to submit this report summarizing the work of our office for the
semiannual period ending March 31, 2014. At the beginning of this period, the
Inspector General, Scott S. Dahl, was confirmed by Congress as the Inspector
General of the Department of Labor. I then assumed the position of
Smithsonian Acting Inspector General. We are thankful to Scott for his
outstanding work at the Smithsonian and miss him both as a colleague and as
a friend.

During this semiannual period, we issued three audit reports, an analysis of
the Smithsonian’s financial assurance letter process, and our annual letter on
oversight of the Smithsonian’s financial statement audits. We also issued our
Top Management Challenges Report for 2013.

On the investigative side, we continue to investigate criminal allegations of
contractor fraud at Smithsonian’s parking operation at the Steven F. Udvar-
Hazy Center. We completed several investigations and resolved numerous
complaints from staff and the public.

We appreciate the continued support from the Smithsonian Board of Regents
and management of the OIG’s mission to promote efficiency and effectiveness,
and to detect and prevent waste, fraud, and abuse. We are also grateful for
the ongoing interest of the congressional committees with which we work.




Epin H. Christensen
Acting Inspector General




Office of the Inspector General                              Semiannual Report

Smithsonian Institution                                             April 2014

Background
Smithsonian Institution Profile

The Smithsonian Institution is a trust
instrumentality of the United States
created by Congress in 1846 to carry
out the provisions of the will of James
Smithson, an English scientist who left
his estate to the United States to found
“an establishment for the increase and
diffusion of knowledge.”

The Smithsonian is the largest museum
and research complex in the world. It
currently includes 19 museums and
galleries, the National Zoological Park,
9 research centers, and numerous
research programs. These facilities
hosted over 30 million visitors in 2013.

The Smithsonian is the steward of
approximately 137 million objects and
specimens, which form the basis of
world-renowned research, exhibitions,
and public programs in the arts, culture,
history, and the sciences.                  View of the Smithsonian Castle. Image from
                                            the National Parks Service Historic American
The Smithsonian’s Affiliations Program      Buildings Survey. Image credit: Jack E.
brings its collections, scholarship, and    Boucher.
exhibitions to over 180 communities
across the United States, Puerto Rico, and Panama. The Smithsonian’s myriad
websites reached over 140 million visitors last year, and the collection of
digitized records available online exceeded 8.5 million.

Federal appropriations provide the core support for the Smithsonian’s science
efforts, museum functions, and infrastructure. That support is supplemented
by trust resources, including private donations and grants.




Office of the Inspector General        2                         Semiannual Report

Smithsonian Institution                                                 April 2013

Office of the Inspector General Profile

The Inspector General Act of 1978, as amended in 1988, created the Office of
the Inspector General as an independent entity within the Smithsonian. The
OIG reports directly to the Smithsonian Board of Regents and to the Congress.

Office of Audits

The Office of Audits conducts audits and reviews of the Smithsonian’s
programs and operations to improve their efficiency and effectiveness. We are
guided by an annual Audit Plan that identifies high-risk areas for review. The
Office of Audits also monitors the external audit of the Smithsonian’s financial
statements and oversees reviews of the Smithsonian’s information security
practices.


Office of Investigations

The Office of Investigations pursues allegations of waste, fraud, abuse, gross
mismanagement, employee and contractor misconduct, and criminal and civil
violations of law that have an impact on the Smithsonian’s programs and
operations. It refers matters to the U.S. Department of Justice for prosecutive
decision and action whenever the OIG has reasonable grounds to believe there
has been a violation of federal criminal law. The Office of Investigations also
identifies fraud indicators and recommends measures to management to
improve the Smithsonian’s ability to protect itself against fraud and other
wrongdoing.


Office of Operations

The Office of Operations provides support to the Offices of Audits and
Investigations, and is also responsible for administrative matters that the OIG
handles as an independent office, such as budgeting, procurement, human
resources, information technology, and managing organizational performance.
The office is establishing a continuous audit program to identify: potential
fraud, noncompliance with Smithsonian policies and procedures, or
regulations, as well as weak internal controls.


Counsel

The Counsel to the Inspector General provides independent legal advice to the
Inspector General and the audit and investigative staff.




Office of the Inspector General        0                     Semiannual Report

   Smithsonian Institution                                         April 2014

Smithsonian 2013 Top Management
Challenges
http://www.si.edu/Content/OIG/Misc/TMC2013.pdf

On November 15, 2013, we issued our list of the top management challenges
facing the Smithsonian Institution. The Reports Consolidation Act of 2000,
which requires these reports, does not expressly apply to the Smithsonian.
However, we think that the report can provide valuable insight for us and our
stakeholders.

In the report, we describe each challenge based on work that we have already
done that has revealed risk to the Smithsonian’s mission. In addition, we
canvassed Smithsonian leadership and other stakeholders to identify their
concerns. We also summarized management's progress in addressing these
areas and what we plan to do this fiscal year relating to the challenges.

The Smithsonian’s top management challenges are summarized below:

Federal Budget and Sequestration
Budget challenges have been felt across the Smithsonian and the federal
government because of sequestration—broad, automatic, across-the-board
cuts to most categories of federal spending. Smithsonian management is
taking steps to reduce the impact of these cuts.

Safety and Security of Staff and the Visiting Public
The safety of the Smithsonian’s visitors, volunteers, and staff, and the security
of its collections have been, and continue to be, the Smithsonian’s highest
priorities. Security breaches around the nation and in our area remind us that
we must remain vigilant in safeguarding our people and property.

Collections Stewardship
The Smithsonian Strategic Plan recognizes that “collections are fundamental to
our work,” and that it is the Smithsonian’s responsibility to “preserve them for
future generations.” The challenge for the Smithsonian is that collections are
constantly growing, and at the same time, resources needed to provide proper
stewardship remain stagnant or are declining.

Construction Management
In 2003, Congress established the National Museum of African American
History and Culture. The funding for this estimated $500 million construction
project will be split evenly between federal appropriations and private

Office of the Inspector General         1                     Semiannual Report

   Smithsonian Institution                                          April 2014

donations. Smithsonian management has emphasized keeping this highly
visible project on time and within budget.

Information Systems Security
The Smithsonian faces several information security challenges in balancing
public access with essential information systems safeguards. The information
security challenges are evident in the Smithsonian’s ongoing efforts to (a)
comply with government and industry standards for protecting information
systems, and (b) establish an effective privacy program that will protect
sensitive personally identifiable information.




Office of the Inspector General       2                    Semiannual Report

   Smithsonian Institution                                       April 2014

Audits and Reviews 

During this semiannual period, we issued three reports and completed
substantial work on ongoing audits. We also issued an analysis of the
Smithsonian’s financial assurance letter process and our annual letter on
oversight of the Smithsonian’s financial statement audits.


Reports and Advisories

Selected Financial Operations of the Smithsonian Tropical
Research Institute

Located in the Republic of Panama (Panama), the Smithsonian Tropical
Research Institution (STRI) is a research center dedicated to understanding
biological diversity and its relevance to human welfare. It has marine
laboratories on both coasts of Panama, giving access to two different ocean
environments. Its geographically remote location – and the unique demands of
operating in another country – present challenges for the Smithsonian to
oversee and manage STRI’s operations.

Our audit objective was to evaluate high-risk areas of STRI’s financial
operations, including cash operations, accounts receivable transactions, and
procurement activities.

We found that STRI had not timely performed bank account reconciliations or
posted cash transactions to the Smithsonian’s official accounting records.
STRI’s bank account reconciliations were not complete, and there was a lack
of segregation of duties over the payroll operations. We also found that STRI’s
accounts receivable did not reconcile to the general ledger. STRI had
approximately $50,000 of accounts receivable balances that were more than
90 days delinquent as of fiscal year-end 2012. Moreover, STRI did not have a
written policy that outlined procedures to collect the delinquent balances.

During our review of procurement activities, we found that STRI management
did not ensure that the Office of Facilities Engineering and Operations (OFEO)
participated in the design stage of a construction project. This caused OFEO to
disapprove the use of a science lab for safety reasons. We also found that
STRI management had not assigned a custodian to control purchased assets.

Lastly, we found that STRI had filled two key directorates with outside
consultants, which increases the risk of loss of continuity of business
operations and management stability.




Office of the Inspector General        3                     Semiannual Report

   Smithsonian Institution                                         April 2014

We recommended that STRI develop and implement written policies and
procedures over bank account reconciliations, as well as accounts receivable
and collections activities. We also recommended that STRI coordinate with
OFEO on construction and improvement projects; assign responsibility for the
control and maintenance of accurate inventory records; and develop a
succession plan for key directorates currently being filled by outside
consultants.

Management concurred with our findings and recommendations and has
planned corrective actions to address the recommendations. We will continue
to monitor management’s progress towards completion of these
recommendations.


Management of the Smithsonian’s Motor Vehicle Fleet
Operations

The Smithsonian operates a vehicle fleet program to support the mission and
functions of the Institution. The vehicle fleet program was established to
ensure: (1) the availability of safe and reliable vehicles, (2) timely
maintenance and repair of vehicles, and (3) the monitoring of the fleet size
and utilization of vehicles. During our review, the fleet consisted of 487
sedans, buses, trucks, vans, and sport utility vehicles.

Our audit objectives were to evaluate the controls that management has
established to minimize the costs of motor vehicle operations, including
maintenance, fuel use, purchasing, and disposal. Additionally, we assessed
whether the Smithsonian is achieving the sustainability goals outlined in
Executive Order (EO) 13514, Federal Leadership in Environmental, Energy,
and Economic Performance.

We found that Smithsonian management: (1) developed policies based on
best practices for fleet management; (2) invested resources in a fleet
management information system (FleetWave); and (3) appeared to adhere to
Executive Order 13514. However, there were weaknesses in the
implementation of these policies and procedures.

Management did not implement important components of its policy such as
establishing the Vehicle Coordinator Program and enforcing the use of vehicle
trip logs and the use of Form SI-3805, Justification for Acquisition of a Motor
Vehicle or Off-Highway Equipment. We also determined that the policy
addressing driver licenses was outdated.

In addition, we identified data discrepancies between the systems that report
on the Smithsonian’s fleet. We identified 37 vehicles, with a total purchase
price of approximately $797,703, that were recorded in FleetWave but were
not included on the Enterprise Resource Planning (ERP) Financials vehicle

Office of the Inspector General        4                     Semiannual Report

   Smithsonian Institution                                         April 2014

asset list. Further, we identified 20 vehicles, with a total purchase price of
$253,095, that were on the ERP vehicle asset list but were not recorded in
FleetWave.

We also found that there were no policies and procedures to ensure that fuel
cards were assigned in FleetWave. Fourteen active cards (or 29 percent of
cards sampled) were not assigned to a specific vehicle in FleetWave.

To strengthen fleet management, we recommended that the Smithsonian
update and fully implement policies and procedures to include the Vehicle
Coordinator program, trip logs, and use of form SI-3805; develop procedures
to periodically reconcile vehicle information between FleetWave and ERP; and
develop and implement policies and procedures to ensure the proper control of
fleet cards.

Management concurred with our findings and recommendations and has
planned corrective actions to address the recommendations. We will continue
to monitor management’s progress towards completion of these
recommendations.


Management of the Government Purchase Card Program
The Smithsonian uses purchase cards to reduce the administrative cost of
small dollar purchases, making over $27 million in expenditures in 100,498
transactions from October 1, 2011 through December 31, 2012. At the end of
2012, there were 658 purchase cards issued to Smithsonian personnel.

Smithsonian management has a heightened interest in reducing the risk of
misuse, fraud, waste, and abuse in such vulnerable areas as cash processing
and purchasing. Purchase cards allow the same individual to order, pay for,
and receive goods and services. If purchase card internal controls are not
properly designed, it will be difficult for management to detect and prevent
fraudulent purchases or improper uses of the cards.

Our audit objective was to determine if the Smithsonian exercises effective
management and oversight of the government purchase card program, and
we found that the Smithsonian generally did. In general, the purchase card
transactions we reviewed were appropriate for the mission of the purchasing
unit.

However, we determined that some additional preventative controls could
improve the program. Approving officials were not always approving purchase
card transactions in the Smithsonian’s financial system or documenting their
review of cardholder purchase logs and credit card statements as required by
Smithsonian policies and procedures. We also found that management had not
blocked Merchant Category Codes that allow certain high-risk transactions,


Office of the Inspector General         5                      Semiannual Report

   Smithsonian Institution                                           April 2014

such as purchases of jewelry, watches, furs, and alcohol. In addition,
Smithsonian had not fully implemented best practices to ensure effective
strategic sourcing when employees use government purchase cards to acquire
commonly purchased goods and services. Lastly, we found that the
Smithsonian may have inappropriately paid state and local sales taxes on
purchase card transactions.

To strengthen the purchase card program, we recommended that
management: reinforce the need for approving officials to timely approve
transactions in the Smithsonian’s financial system; evaluate restrictions on
Merchant Category Codes; develop and implement a strategic sourcing
program that encompasses all procurement methods including purchase card
transactions; and, develop thresholds for recovering erroneous tax payments.

Management generally concurred with our findings and recommendations and
has planned corrective actions to address the recommendations. We will
continue to monitor management’s progress towards completion of these
recommendations.


Financial Statement Assurance Letter Process
In June 2011, Smithsonian management issued Smithsonian Directive (SD)
310, Financial Reporting and Risk Management Internal Controls, based on the
principles outlined in the Committee of Sponsoring Organizations of the
Treadway Commission evaluation methodology, the Office of Management and
Budget Circular A-123, Management’s Responsibility for Internal Control, and
the Sarbanes Oxley Act of 2002. This directive outlines the guidance to unit
directors regarding their responsibility during the annual attestation letter
process. To follow up on the directive, in September 2011, Smithsonian
management offered formal training to assist unit directors in understanding
their responsibilities for financial reporting and internal controls.

Our objectives were to evaluate (a) the process that unit directors use to
attest to the effectiveness of their units’ financial reporting controls and
financial information reliability; (b) the training and guidance that the Office of
the Comptroller (OC) provides to unit directors regarding financial reporting
controls; and (c) Smithsonian management’s response to deficiencies or areas
of concern identified by the unit directors during the attestation letter process.

Based on our interviews with management, surveys, and the fiscal year 2012
attestation letters:

1. Unit directors stated that they generally understand what they are
   attesting to, and they have an effective process to support their
   attestations.



Office of the Inspector General          6                     Semiannual Report

   Smithsonian Institution                                           April 2014

2. Over half of the respondents did not receive formal training regarding their
   responsibilities as outlined in SD 310. However, those that did attend
   relevant training indicated that it was effective or very effective. In
   addition, while the unit directors believed that OC generally provided them
   with effective guidance, some of them would like more direction on internal
   control standards.

3. No unit directors identified any material weaknesses, deficiencies, or areas
   of concern during the fiscal year 2012 attestation letter process.

To improve the annual assurance letter process, we recommended that the
CFO evaluate the unit directors’ comments and provide an action plan that
addresses the survey’s results. Management concurred with our
recommendation and plans to offer one annual classroom-style training class
as well as on-line training. Further, management will continue to offer
individual training sessions to directors on request.


OIG Oversight of the Financial Statements Audits

The OIG serves as the Contracting Officer’s Technical Representative for the
oversight of the Smithsonian’s annual financial statements audits performed
by an independent public accounting firm. The firm audited the Smithsonian’s
FY 2013 Federal Closing Package (federal appropriations reporting) and the
entity-wide financial statements (combined federal and trust funds reporting).
The independent auditor reported no material weaknesses or significant
deficiencies in its management letter. However, the auditor made four
observations that management needs to address.




Office of the Inspector General        7                     Semiannual Report

   Smithsonian Institution                                         April 2014

Status of Recommendations
Smithsonian management made significant progress in implementing the
recommendations from audit reports we issued during this and prior
semiannual reporting periods. As a result, we closed 31 recommendations
during the past 6 months. Implementation of these recommendations resulted
in:

   •	 Improved management of financial activities at the Center for Folklife
      and Cultural Heritage;

   •	 Better stewardship of the collections at the National Museum of

      American History;


   •	 More accurate reporting of fundraising for the National Museum of
      African American History and Culture;

   •	 Improved management of financial activities at the Smithsonian Tropical
      Research Institute;

   •	 More effective monitoring of major information technology applications;
      and

   •	 Improved privacy policies and procedures.

We summarize the open recommendations from prior semiannual periods and
the target implementation dates in Table 5.



Work in Progress

At the end of the period, we had three audits and reviews in progress, as
described below.


Review of the Smithsonian’s Information Security Program

The Federal Information Security Management Act of 2002 (FISMA) directs the
OIG to annually evaluate the information security program of the entity it
oversees. The Smithsonian voluntarily complies with FISMA requirements
because they are consistent with the organization’s strategic goals.
Information systems security is one of the Smithsonian’s top management
challenges. For fiscal year 2013, the review focused on the general support
system, the Scientific Computing Infrastructure and High Energy Astrophysics


Office of the Inspector General       8                     Semiannual Report

   Smithsonian Institution                                        April 2014

systems at the Smithsonian Astrophysical Observatory, and the National
Museum of Natural History Collections Information System.


Pan-Institutional Initiatives Addressing Collections Care
With this audit, we continue our monitoring and assessment of the
Smithsonian’s progress towards a pan-institutional approach to collections
care. Our objectives are to: (1) evaluate the impact the Smithsonian initiatives
have on collections care; (2) assess management’s plans for using the data
collected to-date in addressing collections care issues Smithsonian wide; and
(3) examine future funding and contingency plans for collections care.


Management of Leased Office Space
We are evaluating the Smithsonian’s management of leased office space. Our
general objectives are to evaluate the Smithsonian’s short and long-term
plans for managing its leased office portfolio and also to assess management
strategies for identifying opportunities to reduce costs relating to leased office
space.




Office of the Inspector General         9                      Semiannual Report

   Smithsonian Institution                                           April 2014

Investigations
Types of Investigations and Activities

The types of allegations that the agents investigated during this semiannual
period include the following: embezzlement, false representations, theft of
property, workers compensation fraud, misuse of government travel card, and
time and attendance fraud.

For several of the investigations, the agents worked jointly with other federal
law enforcement agencies, including the Federal Bureau of Investigations and
the Department of Labor. OIG agents promulgated subpoenas for documents,
prepared and executed a search warrant, and seized evidence. They have
provided investigative work products to federal prosecutors for criminal
investigations. They also provided the results of investigations to management
for administrative action to be taken.

Tables 6 and 7 contain a statistical summary of our investigative results.

Summaries of Several Investigations
The following are summaries of several investigations conducted during the
period.

Theft of Funds

We previously reported that OIG and FBI agents arrested three employees of
Parking Management Inc. (PMI) on August 4, 2012, on charges of stealing
visitor parking fees collected at the Smithsonian Institution’s Steven F. Udvar-
Hazy Center in Chantilly, Virginia. OIG agents determined that these PMI
employees began stealing parking fees in April 2009, shortly after PMI took
over management of the museum’s parking lot. On some days, each stole
more than $4,000 from the Smithsonian. Two of those employees were
sentenced to 20 and 27 months. The third committed suicide prior to entering
her plea. A fourth employee, the on-site manager, was arrested, pled guilty to
Conspiracy to Commit Fraud, and was sentenced to 40 months and restitution
of $1.3 million.

On March 20, 2014, a fifth PMI employee pled guilty to one count of Theft of
Public Money between $3,000 and $30,000 before Judge Ellis in US District
Court, Eastern District of Virginia. Sentencing is pending.




Office of the Inspector General        10                    Semiannual Report

   Smithsonian Institution                                         April 2014

Return of Artifacts

We previously reported that OIG assisted the Department of Homeland
Security (DHS) with the return of historical artifacts allegedly taken illegally
from a Korean War battlefield.

In September 2013, a member of the public contacted a Smithsonian curator
seeking assistance in determining the value of nine seals that had been in the
possession of a deceased relative. The nine seals included three national seals
of the Korean Empire, one royal seal of the Korean Empire, and five signets of
the Joseon Royal Court of the Joseon Dynasty.

The curator recognized that the seals may have cultural significance to the
Republic of Korea and contacted OIG. OIG agents contacted and assisted DHS
Homeland Security Investigations (HSI) agents, resulting in the recovery of
the seals and their return to the Republic of Korea in November 2013. "The
nine Korean seals recovered by HSI special agents are worth millions in the
antiquities business, but they are priceless to South Korea," said HSI Attaché
Seoul Taekuk Cho.

Contracting Irregularities / Abuse of Position

OIG agents investigated several violations of Smithsonian policy and standards
of conduct by a Smithsonian employee. OIG agents determined that the
employee improperly accepted monetary gifts and directed several small
purchase orders to his acquaintances. The U.S. Attorney’s office declined
prosecution. The employee resigned in lieu of management action to terminate
his employment.

Health Insurance Fraud

OIG agents determined that a Smithsonian employee fraudulently listed his
girlfriend as his spouse in order to obtain health insurance benefits for her.
The National Finance Center is refunding the contributions the Smithsonian
made as a result of the fraudulent claim. The insurance company may recover
losses from the medical service providers. The medical service providers may,
in turn, attempt to recover payment for the medical services fraudulently
obtained. The employee received a 14-day suspension.




Office of the Inspector General         11                     Semiannual Report

   Smithsonian Institution                                           April 2014

Other Investigative Activities
Fraud Awareness Program

We continue our efforts to reach out to Smithsonian staff and inform them
about fraud awareness in Smithsonian programs and operations. During this
reporting period, we made fraud awareness presentations to 224 new
employees during their orientations.

Involvement with Other Organizations

OIG agents remain actively involved with the Washington Metro Electronic
Crimes Task Force, the Metropolitan Area Fraud Task Force, the Association of
Certified Fraud Examiners, the Security Association of Financial Institutions
workgroup, and the Interagency Fraud Risk Data Mining Group. This data
mining group assists other OIGs and similar offices to identify systemic fraud
and other risks through automated techniques.




Office of the Inspector General       12                    Semiannual Report

   Smithsonian Institution                                        April 2014

Other OIG Activities
Congressional Liaison
We continue to brief staff from House and Senate committees that have
jurisdiction over the Smithsonian on our work and solicit suggestions for future
audits and reviews.


Legislative and Regulatory Review
The Inspector General Act mandates that our office monitor and review
legislative and regulatory proposals for their impact on the Smithsonian’s
programs and operations. We also reviewed draft Smithsonian directives that
affect the Office of the Inspector General or the Smithsonian’s programs and
operations.

The Counsel to the Inspector General, working with counsel from other
Inspector General offices across the federal government, also monitored
congressional bills and issues relating to the Inspector General community.


Peer Reviews
Government Auditing Standards require audit organizations to undergo
external peer reviews by independent reviewers every three years. Our most
recent peer review, conducted by Federal Deposit Insurance Corporation Office
of Inspector General and issued in September 2011, concluded that our
quality control system was designed to meet government auditing standards,
and complied with those standards, for the 15-month period ending March 31,
2011. We received a peer review rating of pass, the highest rating. We are
currently undergoing peer review by the Railroad Retirement Board Office of
the Inspector General. We will report the results of this review in our next
semiannual report.


Other Activities
OIG staff are actively involved in the TeamMate Federal Users Group. The
office’s working groups are driving a number of improvement initiatives,
including updating and implementing the strategic plan, a comprehensive risk
assessment process, and a streamlined audit process. OIG staff is also
involved in the Institute of Internal Auditors, the Association of Certified Fraud
Examiners, and other professional organizations.




Office of the Inspector General         13                     Semiannual Report

   Smithsonian Institution                                           April 2014

   Tables
   Table 1: List of Issued Audits and Reviews
Report                                                        Questioned/   Funds to be
Number                       Title              Date Issued   Unsupported   Put to Better
                                                                 Costs           Use
A-13-01    Weaknesses in the Smithsonian        10/29/2013        $0             $0
           Tropical Research Institute’s
           Financial Management Require
           Prompt Attention
A-13-08    Analysis of the Smithsonian’s        1/31/2014         $0             $0
           Annual Financial Statement
           Assurance Letter Process
A-13-06    Smithsonian Needs to Update and      3/27/2014         $0             $0
           Implement Vehicle-Related Policies
           and Procedures
A-13-09    OIG Oversight of the Financial       3/31/2014         $0             $0
           Statements Audits

A-13-04    Smithsonian Needs to Improve         3/31/2014         $0         $251,000
           Preventative Controls for the
           Purchase Card Program



   Table 2: Audit Recommendation Activity
                     Status of Recommendations                         Numbers
   Open at the beginning of the period                                      36
   Issued during the period                                                 24
      Subtotal                                                              60
   Closed during the period                                                 31
   Open at the end of the period                                            29




   Office of the Inspector General       14                    Semiannual Report

      Smithsonian Institution                                        April 2014

   Table 3: Reports Issued with Recommendations that 

              Funds Be Put to Better Use 


                     Reports                  Number    Funds For Better Use
 Reports for which no management decision         1          $1,677,108
 has been made by the commencement of
 the reporting period
 Reports issued during the reporting period       1          $ 251,000
     Subtotal                                     2          $1,928,108
 Reports for which a management decision
 was made during the reporting period
    •	 Dollar value of recommendations that       0          $0

        were agreed to by management 

    •	 Dollar value of recommendations that       1          $251,000*
        were not agreed to by management
 Reports for which no management decision         1          $1,677,108
 has been made by the end of the reporting
 period
 Reports for which no management decision         1          $1,677,108
 was made within 6 months of issuance



   Table 4: Reports Issued with Questioned or Unsupported Costs
              Reports                  Number Questioned Unsupported
Reports for which no management               0        $0                $0
decision has been made by the
commencement of the reporting period
Reports issued during the reporting period    0        $0                $0
    Subtotal                                  0        $0                $0
Reports for which a management decision       0        $0                $0
was made during the reporting period
   • Dollar value of disallowed costs
   • Dollar value of costs not disallowed
Reports for which no management               0        $0                $0
decision has been made by the end of the
reporting period
Reports for which no management               0        $0                $0
decision was made within 6 months of
issuance




   *Management agreed that funds could be put to better use but argued that
   determining the amount would be cost prohibitive.




   Office of the Inspector General       15                 Semiannual Report
      Smithsonian Institution                                     April 2014
  Table 5: Prior Recommendations for which Corrective Actions
           Are Not Yet Complete
    Audit Title         Number                                                       Target
                                       Summary of Recommendations
     (Date)             of Recs                                                       Date
Smithsonian               2       The Chief Information Officer should update      6/30/2014
Institution                       SD 920 and other related documents to                to
Information Security                                                               8/30/2014
Program                           provide clear criteria for designating systems
(3/15/2011)                       for inclusion in the Smithsonian’s FISMA
                                  inventory; centrally document as part of its
                                  on-going risk management process the
                                  decisions by the Under Secretaries and the
                                  Unit managers to include or exclude systems
                                  in the FISMA inventory; and, implement
                                  controls to ensure that all SI-owned
                                  laptops/mobile devices that may be used to
                                  store sensitive information are secured with
                                  an appropriate encryption technology.

The Center for            1       The Director of CFCH should develop and          3/31/2014
Folklife and Cultural             implement policies and procedures for the
Heritage Needs to
Improve Its                       selected application of the inventory method
Financial                         to include aging thresholds used to write-off
Management                        inventory and ensure that staff receives
Operations                        proper training regarding the inventory
(9/28/2012)                       method selected.

Management                 3      The Under Secretary for Finance and              6/30/2014
Advisory Regarding                Administration, in coordination with the other
Portable Computer
Encryption                        Under Secretaries, should direct Unit IT staff
(3/4/2013)                        to: determine which laptop computers in their
                                  inventory may be used to store sensitive data
                                  and, with assistance from OCIO, configure
                                  those computers with whole drive encryption;
                                  and, identify all laptop computers that will
                                  not be configured with encryption and clearly
                                  indicate to users with a prominent label that
                                  those computers must not be used to store
                                  sensitive information.

                                  The Chief Information Officer should revise
                                  IT-930-TN28 to assign responsibility to staff
                                  with the knowledge and skills to ensure
                                  laptop computers are configured with
                                  appropriate encryption technology.

FY 2012 Evaluation        4       The Chief Information Officer should: work       11/19/2014
of the Smithsonian’s              with system managers to more quickly test
Information Security
Program                           security patches and remediate vulnerabilities
                                  identified in the OIG assessment; monitor
                                  Smithsonian workstations for unapproved
                                  software and timely maintenance of approved
                                  software and enforce the requirement to

  Office of the Inspector General              16                      Semiannual Report

     Smithsonian Institution                                                 April 2014

 Audit Title      Number                                                     Target
                                  Summary of Recommendations
  (Date)          of Recs                                                     Date
                             maintain products that are approved; and,
                             ensure that the system managers provide
                             monitoring and account management reports
                             and evidence of audit log reviews to the OCIO
                             Security Program.




   Table 6: Summary of Complaint Activity
                    Status                                         Number
 Open at the start of the reporting period                            36
 Received during the reporting period                                 40
    Subtotal                                                          76
 Closed during the reporting period                                   45
 Total complaints pending                                             31

   Table 7: Summary of Investigative Activity
                Investigations                              Amount or Number
 Caseload
   Cases pending at beginning of reporting period                      6
   Cases opened during the reporting period                            4
      Subtotal                                                        10
   Cases closed during the reporting period                            3
   Cases carried forward                                               7
 Referrals for Prosecution
   Pending at the beginning of the period                              2
   Accepted during the period                                          2
   Pending at the end of the period                                    4
 Successful Prosecutions
   Convictions                                                         1
   Fines
   Probation
   Confinement
   Monetary Recoveries and Restitutions                            $26,616
 Administrative Actions
   Terminations                                                       0
   Resignations                                                       3
   Reprimands or admonishments                                        0
   Suspensions                                                     14 days
   Collection items recovered                                        148




Office of the Inspector General          17                      Semiannual Report

   Smithsonian Institution                                             April 2014

   The Office of the Inspector General investigates allegations
   of waste, fraud, abuse, gross mismanagement, employee
   and contractor misconduct, and criminal and civil violations
   of law that have an impact on the Smithsonian's programs
   and operations.




           Office of the Inspector General HOTLINE

                             202-252-0321
                          oighotline@oig.si.edu
                           http://www.si.edu/oig

                                    or write to 


                         Smithsonian Institution 

                     Office of the Inspector General 

                        PO Box 37012, MRC 524 

                      Washington, DC 20013-7012 



 IF REQUESTED, ANONYMITY IS ASSURED TO THE EXTENT PERMITTED
        BY LAW. INFORMATION PROVIDED IS CONFIDENTIAL.


Although you may remain anonymous, we encourage you to provide us with your
contact information. The ability to gather additional information from you may be the
key to effectively pursuing your allegation.
